           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     Office of Hearings and Appeals
  Reversal of Disability Denial Decisions
   Involving Investigative Information
      from Cooperative Disability
           Investigations Units

  January 2006         A-07-05-15091



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   January 20, 2006                                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Office of Hearings and Appeals Reversal of Disability Denial Decisions Involving
        Investigative Information from Cooperative Disability Investigations Units
        (A-07-05-15091)


        OBJECTIVE
        The objective of this audit was to identify circumstances that may have resulted in the
        allowance of benefits at the hearings level when a prior investigation conducted by
        Cooperative Disability Investigations (CDI) Units may have contributed to a denial.

        BACKGROUND
        The Social Security Administration (SSA) is responsible for implementing policies
        for the development of disability claims under the Disability Insurance (DI) and
        Supplemental Security Income (SSI) programs. Disability determinations under both DI
        and SSI are performed by Disability Determination Services (DDS) in each State,
        Puerto Rico and the District of Columbia in accordance with Federal regulations. 1 In
        carrying out its obligation, each DDS is responsible for determining claimants’
        disabilities and ensuring that adequate evidence is available to support its
        determinations. If the DDS suspects possible fraud or similar fault 2 in a case, it is
        referred to a CDI unit if one exists in the State. 3, 4



        1
            20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
        2
          SSA, POMS, DI 23025.005 B.1.a,b provides that fraud exists when any person knowingly, willfully and
        with intent to defraud makes or causes a false statement to be made or conceals or misrepresents a fact
        that is material to eligibility or payment amount. Similar fault exists under the same circumstances except
        intent to defraud is not required.
        3
          The highest percent of CDI referrals are from DDSs; however, field offices and the public can also make
        referrals.
        4
          If there is not a CDI unit in a State, the DDS will develop and determine whether a finding of fraud or
        similar fault is appropriate. The DDS may need field office assistance to help resolve the potential fraud
        or similar fault issue.
Page 2 – The Commissioner

The SSA Offices of Operations and Disability Programs, and the Office of the Inspector
General (OIG) manage the CDI program. The CDI units’ mission is to obtain evidence
of material fact sufficient to resolve questions of fraud in SSA’s disability programs.

There are currently 19 CDI
units located in 17 states.
These units are typically
comprised of OIG special
agents, State or local law
enforcement, SSA Office of
Operations personnel, and DDS
                                        Los Angeles
personnel. During the period
July 1999 through July 2005,
CDI investigative results were
used to support over
8,000 DDS decisions to deny
SSA disability benefits. This
allowed SSA to avoid improper
payments of approximately
$492 million. 5 See Appendix B for additional background on the CDI units.

CDI units report facts uncovered during the course of an investigation in a standard
report of investigation. The investigative report is provided to the appropriate DDS for
use in the determination of disability. The DDS reviews the investigative report, gives
careful consideration to the results of the investigation, and considers other relevant
evidence in the case folder. If the investigative report is material to the decision, the
DDS will make reference to the report and a copy will be included in the case folder.
After the DDS makes a medical decision, the case folder is returned to the SSA field
office as an allowance and/or denial for processing. 6

A claimant whose application is denied at the DDS, during the initial and reconsideration
steps of the administrative review process, may request a hearing. The Office of
Hearings and Appeals (OHA) is responsible for conducting hearings and issuing
decisions determining whether a person may receive benefits. Hearings are held before
an Administrative Law Judge (ALJ), who considers the evidence that is in the file and
any new evidence, provides an opportunity for a hearing, applies the SSA disability
standards, and issues a new decision, which affirms or reverses the DDS decision. The
OHA organization consists of 10 regional offices, approximately 140 hearing offices,
and over 1,150 ALJs.


5
 SSA program savings are projected at a flat rate of $66,500 for initial claims that are denied as a result
of CDI investigations, using a formula jointly developed by the OIG and the Office of Disability. When a
CDI investigation supports the cessation of an in-pay case, the SSA program savings are projected by
multiplying the actual monthly benefit times 60 months.
6
    SSA, POMS, DI 23025.020 B.1.
Page 3 – The Commissioner

Not all cases where fraud is suspected are accepted for investigation. 7 Likewise, not all
claimants, who have their case denied by the DDS, choose to appeal to OHA. See
Appendix C for an overview of possible actions for a case from the identification of
potential fraud through the appeals process.

RESULTS OF REVIEW
During the period July 1999 through April 2004, CDI units conducted investigations on
4,712 cases 8 denied at the initial level or at a continuing disability review (CDR) of
which 907 cases were subsequently appealed to OHA. 9 Of these cases, OHA reversed
the decision for 526 cases or 58 percent, which will result in the payment of
approximately $33 million in benefits. 10

Based on our review of case folders, ALJs may not have always been aware that a CDI
unit investigation was conducted and may not have always considered the investigative
report in making the disability decision. These circumstances may have resulted in the
allowance of benefits when a prior investigation by a CDI unit contributed to a denial
decision. Specifically, our review of case folders for 100 ALJ decisions found:

     •   97 case folders were not clearly marked to indicate an investigation was
         conducted and that the investigative report was included in the case folder;
     •   40 investigative reports were missing from case folders;
     •   28 investigative reports were not included on the exhibit list used to identify
         documents for consideration at the hearing; and
     •   59 investigative reports were not discussed in the ALJ case decision write-up.

We also obtained comments from ALJs on CDI unit investigations. Overall, the ALJs
responded that the CDI units provided evidence beneficial to their disability decisions.
The ALJs also provided suggestions related to CDI unit investigations that would make
them even more beneficial to the OHA disability decision process.




7
 Cases referred to a CDI unit are accepted for investigation based upon the type of claim, type of fraud,
workload of the CDI unit, location of claimant, and resources available.
8
 This is not intended to represent all cases that were investigated by a CDI unit for this time period
because CDI units also conducted investigations on cases that were allowed at the initial level and at a
continuing disability review.
9
 Of the 907 cases denied by the DDS and subsequently appealed to OHA, 718 were initial claims and
189 were CDRs. See Appendix B for additional information on the scope and methodology of our review.
10
  The $33 million that SSA will pay in benefits is based on the program savings that were previously
identified by CDI units for the 526 cases for which OHA reversed the decision.
Page 4 – The Commissioner

RESULTS OF CASE FOLDER REVIEW

Case Folder Not Clearly Marked

For 97 of the 100 cases we reviewed, the outside of the paper folder did not identify that
a fraud investigation was conducted as required by the Hearings, Appeals, and
Litigation Law Manual (HALLEX). 11 In addition, on the three remaining paper folders,
the indicator was on the outside of the folder; however, it could not be easily identified
because other documents were stapled on top of the indicator. Without proper
notification of an investigation on the outside of the paper folder, ALJs may not have
always been aware that a CDI unit investigation was conducted.

HALLEX 12 indicates that when a CDI investigation has been conducted the paper folder
is generally identified by a distinctively colored label or flag bearing the Special Agent
seal and/or the acronyms OIG CDI or OIG/CDI. 13 Accordingly, the distinctively colored
label or flag should be on the outside of the paper folder when it arrives at OHA.
However, we could not identify what SSA component was responsible for placing the
flag on the folder after a CDI investigation was conducted.

SSA stated that it never intended to mark the paper folder to indicate that an
investigation was conducted and also, each adjudicative level is responsible for
reviewing the case folder to determine the evidence to be evaluated. During the course
of our audit, OHA revised HALLEX 14 and issued a memorandum 15 to OHA staff on how
to identify the investigative report. Accordingly, we are making no recommendation
related to the absence of the label or flag on the paper folders.




11
   Although an indicator was included in 5 of the 97 case folders, it was not attached to the outside of the
folder as required by HALLEX I-5-1-15, Attachment 1, Question 1. A red sheet of paper that identified an
investigation had been conducted was loosely inserted in the case folder. It appeared that the indicator
may have been stapled to the outside of the folder but had been subsequently removed.
12
  HALLEX provides guiding principles, procedural guidance, and information to OHA staff. It also defines
procedures for carrying out policy and provides guidance for processing and adjudicating claims at the
Hearing, Appeals Council and Civil Actions levels.
13
  HALLEX I-5-1-15, Attachment 1, Question 1, provides general background information to OHA
(updated 6/15/01).
14
     HALLEX I-2-1-15 (updated 9/28/05).
15
  OHA, Memorandum for Adjudicating Cases Involving Potential Fraud, Similar Fault, and Abuse
Issues – REMINDER, October 31, 2005.
Page 5 – The Commissioner

SSA is in the process of implementing electronic folders (EF), which will be the repository
that stores the claimant’s disability information. Therefore paper folders will be replaced
by the EFs in most cases. 16 The Program Operations Manual System (POMS) 17 for the
EFs do not mention placing an indicator or flag in the EFs to indicate a CDI unit
investigation occurred. 18 SSA informed us that a specific flag is not available in the EF
to identify a CDI unit investigation occurred, but a Special Handling Flag – F (Alert/High
Risk) could be used. The flag would remain with the EF after the case is closed (See
Appendix D). We believe a flag to indicate that a CDI unit investigation occurred would
provide an additional level of assurance that the investigative report will be considered.
Accordingly, SSA should include detailed instructions in POMS to permanently mark the
EFs, including identification of the SSA component responsible to place the indicator or
flag on the folder.

Investigative Reports Missing From Case Folders

The investigative report was missing from 40 of the 100 case folders that we
reviewed. 19, 20 Accordingly, we could not determine if the ALJ was aware that a CDI
unit investigation was conducted on these cases. The CDI unit forwards the
investigative report to the DDS with a transmittal and receipt form. Once the DDS
makes a determination, the transmittal form is sent back to the CDI unit, indicating
whether the
claim was allowed or denied, or in the case of a CDR, continued or ceased. The receipt
of the transmittal form from the DDS is the CDI unit’s verification that the investigative
report was received.

We were unable to determine why the investigative report was missing from the 40 case
folders. Specifically, we do not know if the DDS failed to place the investigative report
in the case folder or if it was removed from the folder during the DDS or OHA
determination processes. For example, when the Hearing Office staff receives a case
folder, the proposed exhibits are selected, arranged in proper order, and marked before
the exhibit list is prepared. 21 Therefore, the investigative report may have been
removed from the folder during this process.


16
  Paper folders will continue to be used for cases such as CDRs, mainframe exclusions, foreign claims,
age 18 redeterminations, and reopenings.
17
     POMS is used for issuing instructions within SSA.
18
     SSA, POMS, DI 80701.070 B.
19
     We obtained copies of the missing investigative report from the CDI units for use in our analysis.
20
   In addition, 57 of the 100 cases we reviewed did not have the investigative report filed correctly in the
case folder. SSA, POMS DI 70005.005 B.6, provides that the investigative report should be filed on top
of all documents in the medical evidence section of the paper folder.
21
     HALLEX I-2-1-20 (updated 9/28/05).
Page 6 – The Commissioner

For the Region VII case folders in our sample, we found all investigative reports (See
Chart 1). 22 This may be the result of the St. Louis CDI unit sending a memorandum to
the DDS when the case
                                                             Chart 1
is accepted for
                                               Investigative Report in Case Folder
investigation and again
when the investigative              100




                               Percent of cases reviewed
report is sent to the                                                     31
                                     80            56     50                    46
DDS at the completion                      60



                                       per region
of the investigation.                60
                                                                100
This memorandum                      40                                   69
includes such                                      44     50                    54
                                     20    40
information as marking
the folder with the CDI               0
unit investigation                         II     IV      VI     VII     IX     X
                                                                                      No
indicator, as well as                                      Region                     Yes
instructions on where to
place the investigative report in the folder. This is a best practice that other CDI units
may want to consider using. 23

Upon implementation of the EF, SSA plans to have the CDI unit place the investigative
report in the EF. Although the investigative report cannot be deleted from the EF, DDS
and OHA staff will have access that will allow them to delete the link for the investigative
report. 24 Once the link is deleted, subsequent users may not be aware that an
investigative report existed. Accordingly, restrictions should be placed on the EF to
ensure the link to the investigative report cannot be removed. Further, since paper
folders will continue to be used for CDRs, current policies should be strengthened to
ensure the investigative report is always included in the folder.

Investigative Report Not Identified on Exhibit List

The investigative report was not identified on the exhibit list for 28 of the 100 cases we
reviewed. Furthermore, we were unable to determine if the investigative report was
identified on the exhibit list for 16 additional cases, because the exhibit lists were not




22
  Less than 5 cases were included in our sample from each of Regions I, III, V, VIII, and Headquarters.
Therefore, these cases were excluded from our analysis because there was an insufficient number of
cases in these regions to reach a reasonable conclusion on filing investigative reports. The cases from
these regions were included in other analysis presented in this report.
23
   According to CDI unit management, they are in the process of developing procedures for all CDI units
to use a similar memorandum.
24
  Although the link is deleted, the investigative report will remain in the document management
architecture. However, the document management architecture is not where EF users would normally
expect to gain access to the investigative report.
Page 7 – The Commissioner

included in the case folders and were unavailable from OHA. 25 Accordingly, we were
unable to determine if the ALJ was aware of or considered the investigative report in
making decisions on these cases.

The hearing office staff prepares an exhibit list that identifies documents pertinent and
material to the case. 26 The ALJ uses the exhibit list to determine documents that will be
admitted as evidence to issue a decision on the claimant’s disability. In the EF an exhibit
list tab is included for cases at the hearing level. This tab mirrors the paper exhibit list that
OHA currently uses to identify pertinent and material documents for the hearing.

For the cases we reviewed, instructions did not exist on how to specifically address the
investigative report on the exhibit list. 27 However, during the course of our audit OHA
revised HALLEX 28 and issued a memorandum 29 to OHA staff instructing them to list the
investigative report as a document on the exhibit list. Accordingly, we are not making
any recommendations related to the identification of the investigative report on the
exhibit list.

ALJ Did Not Discuss the Investigative Report in the Case Decision Write-up

In 59 of the 95 ALJ case decision write-ups we reviewed, 30 the ALJ did not discuss the
investigative report. 31 Accordingly, we were unable to determine if the ALJ considered
the investigative report in making the disability decisions on these cases. When ALJs
write decisions they are required to consider medical opinions in the case record
together with the rest of the relevant evidence received. 32 The ALJs should provide the
rationale for the findings on the relevant issues and the ultimate conclusion, which

25
  HALLEX I-2-1-20 (updated 9/28/05) states in a fully favorable decision, the exhibit list does not need to
be prepared, however, exhibits such as investigative reports still need to be selected, arranged, and
marked within the paper folder.
26
     HALLEX I-2-1-15 (updated 9/28/05).
27
     HALLEX I-2-1-15.A (last updated 8/3/04).
28
     HALLEX I-2-1-15.E.6 (updated 9/28/05).
29
  OHA, Memorandum for Adjudicating Cases Involving Potential Fraud, Similar Fault, and Abuse Issues
– REMINDER, October 31, 2005.
30
   We could not review five of the ALJ case decision write-ups because they were missing from the case
folder and SSA was not able to provide them for our analysis.
31
  Results of our review found 36 ALJs mentioned the investigative report in their decision, however, only
24 of the cases had the investigative report included in the case folder at the time of our review. Although
the investigative report was missing from 40 case folders, it is possible that the investigative report was
included in the case folder at the time of the ALJ’s review. Further, even though the exhibit list for 28 of
these cases did not identify the investigative report as evidence to be considered by the ALJ, they may
have identified the investigative report themselves.
32
     20 C.F.R. §§ 404.1527(2)(b) and (c) and 416.927(2)(b) and (c).
Page 8 – The Commissioner

includes a discussion of the weight assigned to the various pieces of evidence used to
resolve conflicts in the documents presented in the claimant’s disability case folder. 33
CDI evidence is to be weighed with the other relevant evidence and accorded no
special weight simply because it came from a CDI unit. 34 Recent HALLEX instructions
dated September 2, 2005, state that if SSA’s OIG has conducted a formal investigation
on a particular disability claim, the OIG investigative report, as well as any supporting
evidence documented in the report, should be addressed in the ALJs decision. 35

The investigative report can provide valuable information for a finding of fraud or similar
fault and should be addressed in the ALJ case decision write-up. Accordingly, the Chief
ALJ should formally remind the ALJs of the new requirements to address the
investigative report when writing their decisions.

ALJ COMMENTS

We surveyed 20 ALJs that each issued decisions on 10 or more cases in our
population. Sixteen ALJs responded. 36, 37 The ALJs stated that overall the CDI units
provided evidence beneficial to their disability decisions. Examples of comments from
the ALJs included:

          “The CDI unit’s report regarding the claimant’s activities of daily living and
          the individual’s social interactions with others gives me a better
          perspective of what the individual is actually doing compared to most of
          the self-serving testimony I receive from the claimant and his family
          members at the hearing.”
          “I have had good results with the CDI cases I have come into contact with
          during the past several years. I appreciate the CDI unit’s efforts in striving
          to be objective and not bias the case in any way other than to report the
          facts they have discovered. I wish them continued funding and success in
          the future.”




33
     HALLEX I-2-8-25.C.2.c (updated 10/16/03).
34
     HALLEX I-5-1-15, Attachment 1, Question 33 (updated 6/15/01).
35
     HALLEX I-2-8-25.C.2.c (updated 9/2/05).
36
  The four ALJs that did not respond to our survey were located in Region IX. Region IX was the region
with the highest number of cases we reviewed (42 of 100) of which the ALJs allowed benefits for
18 cases.
37
  ALJs provided numerous comments, however, the comments were not associated specifically to the
100 cases we reviewed.
Page 9 – The Commissioner

The ALJs also provided suggestions on some areas of the investigation that would
make them even more beneficial to their disability decisions. 38 Specifically:

      •   A longer period of surveillance tailored to the claimant’s alleged impairments
          would provide more complete evidence on some cases.
      •   Only factual observations about the claimant’s abilities identified during the
          investigation should be included in the investigative report. For example, when
          the claimant is observed walking only one block, the investigative report should
          not conclude the claimant can walk long distances.
      •   Specific details of the investigation, such as the length of time the claimant was
          observed, the distance the claimant walked, or the size of objects lifted should be
          reported in the investigative report.
      •   Standards applied to the CDI Unit’s observations should be placed in proper
          perspective. For example, investigative reports that indicate the claimant’s pace
          and gait were normal should provide a context for normal, such as pace and gate
          were similar to other people walking near the claimant.
      •   Documents that support statements made in the investigative report should be
          presented for consideration. For example, the investigative report states that
          medical evidence submitted by the medical provider for a different claimant was
          very similar to the medical evidence for the claimant under investigation, which
          could indicate duplicative use of medical evidence. Therefore, the CDI unit
          should provide the medical evidence from the other case to support their
          statement.

In addition, the ALJs identified factors that influenced their use of the investigative
report, which might have led to allowance of benefits. Specifically, the ALJs identified
circumstances that caused the investigative report to conflict with other evidence in the
case folder. For example, evidence submitted by medical or vocational experts conflicts
with the results of the investigation or the investigative report, which includes interviews
with third-parties that ALJs consider as hearsay. When circumstances result in the
investigative report conflicting with other evidence, the ALJ should not disregard the
results of the investigation. Rather, the ALJ should request the CDI investigator to
testify at the hearing to clarify the results of the investigation 39 or request third-parties to
testify at the hearing. 40 In addition, the ALJ should request, in writing, from SSA or the


38
     Our audit did not provide evidence to prove or negate the ALJs’ comments.
39
  HALLEX I-5-1-15, Attachment 1, Question 34, states that ALJs may request CDI Special Agents to
testify at the hearing if the ALJ believes that an aspect of an OIG submission requires exploration in oral
testimony (updated 6/15/01).
40
   HALLEX I-5-1-15, Attachment 1, Question 34, states that hearsay rules, such as courts apply to
determine the admissibility of evidence, do not apply in the informal, nonadversarial hearings conducted
by the ALJs of SSA. However, the ALJ can request the appearance of a witness in any instance which
full inquiry into the issues will require testing of the evidence in oral questioning (updated 6/15/01).
Page 10 – The Commissioner

DDS that additional evidence be obtained by the CDI unit. 41 In Fiscal Year (FY) 2004,
CDI units conducted investigations on 2,231 cases that were denied at the DDS. Based
on historical data, we estimate that at least 32 percent of these cases, or about 717,
were appealed to OHA. However, during FY 2005 – the time period during which OHA
would have made decisions on a large number of the estimated 717 cases – CDI unit
investigators were asked to testify at OHA hearings only 23 times and CDI units were
asked to provide additional evidence on only 16 cases.

Based on our population, OHA allowed 58 percent of the cases where a CDI unit
investigation was conducted. However, OHA rarely requested additional information or
testimony from the CDI units. Accordingly, we question whether ALJs are exercising
their ability to request additional information and secure investigator/third party
testimony.

Availability of Videos

The ALJs responded that surveillance videos and pictures were beneficial to make the
disability decision. For example, one ALJ made the following statement about the
surveillance video:

        “When we have the video tape itself at the hearing, it is usually difficult for
        the claimant to explain away. This allows the claimant and his
        representative to comment on it and to use it in the record as actual
        evidence. Sometimes it is so incriminating that the claimant does not
        even want to see it.”

Currently, surveillance videos are recorded on Hi 8, Digital 8, Mini digital video disk
(DVD), and DVD, which are stored at the CDI units. 42 Most CDI units provide copies of
surveillance to the DDS and OHA in videotape format (VHS) on tapes. Since the VHS
tapes are bulky, a copy of the tape is not placed in the paper folder. If the tape was
located in the paper folder, the folder would be hard to store and the tape could be lost
or broken when stored or transported. To request a copy of the surveillance video, the
Hearing Office staff must send a request to the CDI unit, and then wait to receive the
video. Once requested, videos are sent via overnight delivery, certified mail and/or
hand carried to OHA.




41
  HALLEX I-5-1-15, Attachment 1, Question 24, states that the ALJ should request a CDI unit to
investigate an issue of fraud or similar fault if the case presents an issue of fraud or similar fault
(updated 6/15/01).
42
  CDI units are transitioning to record surveillance videos on compact disks (CD) and DVDs, as funds
become available to purchase the technology. From our review of the case folders, we found that the
Tampa CDI Unit included the surveillance on a DVD submitted with the investigative report. The St. Louis
CDI Unit recently started sending key segments of surveillance videos on CDs to the DDS.
Page 11 – The Commissioner

We are concerned that ALJs may not request videos due to the time factor involved in
obtaining the videos and the urgency to reduce OHA’s case backlogs. In fact, during
FY 2005, surveillance videos were requested for only 26 cases. This represents a small
percentage of the cases sent to OHA annually by CDI units where surveillance video
was available.

A multimedia evidence section was incorporated into the architecture of the EF for the
purpose of integrating audio and video evidence into the folder. 43 The EF holds the
promise of integrating all the evidence into one readily accessible location. Further, the
EF will reduce the time it takes to receive information, eliminate the need to wait for and
store the paper folder, and eliminate the need to associate mail with paper folders.

SSA stated that including surveillance videos in the EF would result in system slowdowns
and deplete available memory. However, SSA did not have any information to support its
position and stated that no studies were conducted to determine the impact of including
surveillance video in the EF.

Inclusion of surveillance videos in the EF should not cause substantial system slowdowns
or deplete excessive system memory. In fact, there are a very limited number of cases
that have surveillance video. For example in FY 2005, there were approximately
2,800 investigations conducted and about half had surveillance recorded on video.
However, even if all 2,800 investigations had surveillance video, the impact on the EF
from a slowdown or memory capacity perspective would be very limited. 44 Accordingly,
SSA should not dismiss the benefits of including surveillance videos in the EF. SSA
should take advantage of the EF’s ability to provide all levels of adjudication with a
complete file of evidence including surveillance videos. In doing so, ALJs will make
greater use of surveillance videos and SSA beneficiaries and trust funds will be
advantaged by ensuring that all available evidence is considered in making disability
determinations.




43
     SSA, POMS, DI 80701.020.A.
44
   After numerous discussions between SSA and OIG, the OIG’s Office of Investigations stated in
April 2005 that it would not request CDI surveillance be included in the EF. However, upon further
analysis of the EF’s capabilities with regards to storage of multimedia, the Office of Investigations
supports the inclusion of surveillance videos to ensure that all available evidence is readily available for
all adjudicative levels.
Page 12 – The Commissioner

CONCLUSION AND RECOMMENDATIONS
Procedures developed for the EF will assist in eliminating circumstances that may have
resulted in the allowance of benefits at the hearings level when a prior investigation was
conducted by CDI units, such as ensuring the investigative report is filed in the EF.
However, additional changes are still needed to ensure the flag to identify that a CDI
investigation was conducted is placed on the EF, and the link to the investigative report
is not removed. In addition, procedures to file the investigative report need to be
strengthened, since a paper folder will still be used for some cases. Further, actions are
needed by OHA to ensure that the investigative report is considered in its decision-
making process. Lastly, OHA’s use of surveillance videos should increase if available in
the EF.

We recommend that SSA:

   1. Provide instructions in POMS on what component is responsible to: (a) file the
      investigative report in the paper folder and (b) flag the EF to identify cases in
      which a CDI unit investigation was conducted.

   2. Place restrictions on the EF to ensure the link to the investigative report cannot
      be removed.

   3. Request the Chief ALJ to remind ALJs of the September 2005 instructions to
      document the use of the investigative report in the disability decision write-up.

   4. Request the Chief ALJ to encourage ALJs to request CDI unit investigators and
      third parties to testify at hearings when clarification of the investigative report is
      needed, particularly the testimony of third parties, which might otherwise be
      construed as hearsay evidence.

   5. Request the Chief ALJ to encourage ALJs to request from SSA and DDSs
      additional evidence from CDI units when warranted by case circumstances.

   6. Require surveillance videos to be included in the multimedia evidence section of
      the EF.
Page 13 – The Commissioner

OTHER MATTERS
For 34 of the 100 cases we reviewed, both the ALJ decision and the exhibit list were
missing from the folder. 45, 46 In addition, three case folders were missing only the
exhibit list (See Chart 2).
                                                               Chart 2
The ALJ decision and                     ALJ   Case  Decision  Write-ups and Exhibit Lists
attachments should be filed in the                                   63%
Payment Documents/Decision                                                   Included
                                47
section of the paper folder.       It is
                                                                             Only
important that all information                                               Exhibit List
related to the claimant’s disability                                         Missing
be included in the case folder. If                                           Decision
information is excluded from the           34%                               and Exhibit
                                                                             List Missing
case folder the processing of                           3%
disability cases is slowed down
due to the wait time to acquire
documents from other sources. Also, there is no assurance that the missing documents
can be obtained from other sources. OHA should ensure that the ALJ decision and
exhibit list are filed in the case folder.

Agency Comments
In commenting on our draft report, SSA agreed with the intent of our recommendations.
However, it did not agree to immediately implement recommendations 2 and 6. In
response to recommendation 2, SSA stated that it would not be cost-effective at this
time to place restrictions on the EF to ensure the link to the investigative report cannot
be removed. Specifically, business rules, requirements and software modifications
would be needed. With regards to recommendation 6, SSA stated that technology does
not currently exist to allow inclusion of surveillance videos in the EF. However, SSA
stated that it is making strides in maintaining multimedia in the EF. See Appendix E for
the full text of SSA’s comments.




45
  We requested the missing ALJ case decision write-ups and exhibit lists from SSA, however only 29 ALJ
case decision write-ups and 21 exhibit lists were provided for our analysis.
46
   HALLEX I-2-1-20 (updated 9/28/05) states in fully favorable decisions, the exhibit list does not need to
be prepared, however, exhibits will still be required to be selected, arranged, and marked in the paper
folder.
47
     SSA, POMS, DI 70025.001.E.5.b.
Page 14 – The Commissioner

OIG Response
Although the Agency stated that it disagreed with recommendations 2 and 6, SSA’s
comments to the recommendations indicate agreement with the intent of our
recommendations. Accordingly, we continue to believe SSA should take the corrective
actions when they become cost effective and technologically possible.

SSA should place restrictions on the EF to ensure the link to the investigative report
cannot be removed. This will prevent a user from improperly deleting the link to the
investigative report. Accordingly, this enhancement to the EF should be prioritized with
other EF modifications and implemented at the appropriate time.

SSA should make surveillance videos available in the EF. By doing so, ALJs may make
greater use of surveillance videos and SSA beneficiaries and trust funds will be
advantaged by ensuring that all available evidence is considered in making disability
determinations. Accordingly, exploration of maintaining multimedia in the EF should
continue.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Overview of Actions for a Case from the Identification of Potential Fraud
             through the Appeals Process

APPENDIX D – Electronic Case Folder

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
ALJ      Administrative Law Judge
CD       Compact Disk
CDI      Cooperative Disability Investigations
CDR      Continuing Disability Review
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
DI       Disability Insurance
DVD      Digital Video Disk
eDib     Electronic Disability
EF       Electronic Folder
FY       Fiscal Year
HALLEX   Hearings, Appeals, and Litigation Law Manual
NADE     National Association of Disability Examiners
OHA      Office of Hearings and Appeals
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
VHS      Videotape format
                                                                                     Appendix B

Background, Scope and Methodology
BACKGROUND
Fraudulent activity in connection with claims for disability benefits is a major concern.
The Social Security Administration (SSA) is committed to assuring the integrity of its
various programs. One of SSA's major anti-fraud initiatives is the Cooperative Disability
Investigations (CDI) unit program. SSA’s Offices of Operations and Disability
Programs, and the Office of the Inspector General (OIG) manage the CDI unit program.
CDI units use the combined skills and specialized knowledge of OIG special agents,
personnel from SSA’s Office of Operations, the Disability Determination Services
(DDS), and State or Local law enforcement. The CDI program mission is to:

          •   Provide evidence for DDSs to make timely and accurate disability
              determinations;
          •   Seek criminal and/or civil prosecution of applicants and beneficiaries and
              refer cases for consideration of civil monetary penalties and administrative
              sanctions, as appropriate; and
          •   Identify, investigate and seek prosecution of doctors, lawyers, interpreters,
              and other third parties who facilitate disability fraud.

Since Fiscal Year 1998, investigative units have become fully operational at 19 sites in
17 states: Atlanta, Georgia; Baton Rouge, Louisiana; Boston, Massachusetts; Chicago,
Illinois; Cleveland, Ohio; Dallas, Texas; Denver, Colorado; Houston, Texas; Iselin, New
Jersey; Los Angeles, California; Nashville, Tennessee; New York City, New York;
Oakland, California; Phoenix, Arizona; Richmond, Virginia; Salem, Oregon; St. Louis,
Missouri; Seattle, Washington; and Tampa, Florida.

The National Association of Disability Examiners (NADE), a strong supporter of the CDI
units’ mission, encouraged Congress and SSA to provide resources to expand the CDI
units to the remaining 33 states. NADE further commented, “CDI units are cost
effective and provide a visible and effective front-line defense against fraud, waste, and
abuse in the SSA and SSI disability programs; they also provide valuable protection to
the Social Security Trust Fund, to the American taxpayer and to the victims of those
who are attempting to defraud the program.” 1

By referring a case to the CDI unit, the DDS is able to obtain crucial information to
assist in making the correct decision on a case. CDI units gather information that is not
routinely available to DDSs when making a disability decision. The CDI unit can
perform surveillance to observe the claimant’s activities at their residence or when they
go out and can conduct unannounced interviews of the claimant and neighbors or other

1
    NADE Position Paper, Expansion of the Cooperative Disability Investigations Units, July 1, 2004.


                                                     B-1
third parties. During formal investigations, obvious inconsistencies are often found
between what a claimant alleges and what they are actually observed doing or formal
investigations can confirm the limitations alleged by the claimant. In addition, CDI units
are often able to obtain information from employers, neighbors, motor vehicle records
and other sources to identify unreported or under reported work activity.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

        •   Reviewed –

                      • Program Operations Manual System DI 23025, DI 70005,
                        DI 80501, DI 80620, DI 80701, and GN 03103,
                      • Hearings, Appeals, and Litigation Law Manual I-2-1-5, I-2-1-15,
                        I-2-1-20, and I-5-1-15,
                      • 20 Code of Federal Regulations 404 and 416,
                      • CDI Manual, and
                      • OIG Special Agent Handbook.

        •   Obtained a file of 4,712 claimants 2 denied disability benefits after an
            investigation conducted by a CDI unit between July 1999 and April 2004. We
            tested the data for accuracy and completeness and determined it to be
            sufficiently reliable to meet our audit objective.

        •   From the file of 4,712 claimants, we excluded:

                      •   2,969 claimants - who did not file an appeal with the Office of
                          Hearings and Appeals (OHA) as of August 2, 2004,
                      •   607 claimants - who filed an appeal; however, the appeal was still
                          open as of August 2, 2004, and
                      •   229 claimants - who had their appeal dismissed by OHA.

            Of the remaining 907 cases, we divided the cases based upon decision –
            526 claimants were allowed benefits by an Administrative Law Judge (ALJ)
            and 386 claimants were denied benefits by an ALJ. 3



2
 This is not intended to represent all cases that were investigated by a CDI unit for this time period
because CDI units also conducted investigations on cases that were allowed at the initial level and
continuing disability review.
3
  Some disability claimants that appealed concurrent benefits received different ALJ decisions on their
Title II and Title XVI disability claim. Disability claimants that received favorable decisions on one claim
and an unfavorable on another claim were included as both an allowance and a denial. Therefore, the
total number of allowances and denial decisions totaled 912.


                                                     B-2
          •   Reviewed case folders for a sample of 50 allowance decisions 4 and 50 denial
              decisions 5 issued by ALJs after an investigation was conducted by a CDI unit.
              Our review identified circumstances that may have resulted in OHA allowing
              disability benefits although an investigation was conducted by a CDI unit.

          •   Sent a questionnaire to 20 ALJs who each heard 10 or more cases where a
              CDI unit investigation was conducted to obtain information on the ALJs use of
              the investigative report in making their decision. 6 We received responses
              from 16 ALJs, or 80 percent.

We conducted our audit between December 2004 and July 2005 in Kansas City,
Missouri. The entity audited was OHA within the Office of Disability and Income
Security Programs and CDI units managed by SSA's Office of Operations, Office of
Disability Programs and OIG. Our audit was performed in accordance with the
generally accepted government auditing standards.




4
    To obtain case folders for 50 allowance decisions, we had to request 55 case folders.
5
    To obtain case folders for 50 denial decisions, we had to request 68 case folders.
6
    These 20 ALJs issued decisions on 30 percent of the cases in our population.


                                                      B-3
                                                                                  Appendix C

Overview of Actions for a Case from the
Identification of Potential Fraud through the
Appeals Process
  Possible Fraud             Cooperative                                       May request the
  Identified at the            Disability                      DDS             assistance of the
                                                 No                           field office to help
     Disability             Investigations                  Develops the
   Determination             (CDI) Unit in                     Case            resolve potential
  Services (DDS)               the area                                           fraud issues

                                           Yes
                                                             Not Accept



                              Allegation
                               Sent to                           CDI Unit
                                                                  Screens           Accept
                              CDI Unit
                                                                 Allegation

                                                                                    Conduct
                                                                                  Investigation



                                                                                     Issue
                           Allow                      DDS
                                                                                  Investigative
                          Benefits                 Determines
                                                                                     Report
                                                    Disability




                                                       Deny
                                                      Benefits




                                                     Claimant
                        No further         No      files appeal
                       action taken               with Office of
                                                     Hearings
                                                  and Appeals



                                                           Yes




                                                  Administrative
                                                   Law Judge                      Allow
      Further appeal          Deny
                                                    Reviews                      Benefits
         possible            Benefits
                                                   Evidence in
                                                      Case
                                                                                     Appendix D

Electronic Case Folder
In 2002, the Social Security Administration (SSA) announced plans to improve the
disability process by moving to an electronic disability case folder through the Electronic
Disability (eDib) project. Beginning in 2004, Social Security offices and Disability
Determination Services (DDS) throughout the country began to implement various
components of the electronic claim process at varying intervals.

Once the changes are fully implemented:

        •   Disability adjudicators will be able to request and receive medical evidence
            electronically.
        •   Evidence received as paper will be scanned. SSA and DDS staff will work
            with images of medical evidence.
        •   Cases will be electronically routed from office to office, rather than mailed.

Although the electronic folder (EF) will resemble the current paper folder, procedures
will be different to: (1) mark the EF to alert a user that a Cooperative Disability
Investigations (CDI) unit has conducted an investigation, (2) file the CDI unit’s
investigative report in the EF, and (3) create the exhibit list to be used by Administrative
Law Judges (ALJ) to identify documents for consideration at the hearing. 1

Mark the Electronic Folder

Flags are placed on the EF to alert other components of the need for special processing
of the disability claim or to provide additional case processing information. SSA
indicated that a specific flag is not available in the EF to indicate a CDI unit investigation
occurred, but a Special Handling Flag – F (Alert/High Risk) could be used. Once a flag
has been placed on the folder, it remains on the folder unless removed.

Flags are displayed on the title bar in the EF (See Illustration 1). If there are more than
two flags, then the title bar displays the word “More.” To view additional flags a user
must select the “View Details/Edit” link to the left of the first flag.




1
 Illustrations used do not specifically show a special flag associated with an investigation conducted by a
CDI unit or list the investigative report. The illustrations are provided as a general overview of how flags
and documents are presented.


                                                    D-1
                                               Illustration 1




The “Flags” page displays a summary of the flags (See Illustration 2). Special flags will
be displayed first in the list in descending alphabetical order, followed by the rest of the
flags in descending alphabetical order.

                                               Illustration 2




To view the flag description, edit, or delete an existing flag a user must select the flag.
Once the flag is opened you can add or modify the description or select the “Delete”
button to remove the flag (See Illustration 3). 2

                                               Illustration 3




File the Investigative Report
The investigative report should be filed in the EF as evidence to be considered when
the disability determination is made. SSA plans to change procedures to allow CDI
units to directly place the investigative report in the Medical Records section of the
“Case Documents” tab in the EF (See Illustration 4). Once this access is established

2
    Only employees with the permission to add, delete, or modify flags can remove a flag.


                                                     D-2
the CDI units will create and print a barcode that contains identifying information. The
investigative report will then be faxed and electronically placed directly into the folder
based on the information provided in the barcode. The investigative report will be
viewable in the Medical Records section of the EF.

Once the investigative report is placed in the EF, DDS and Office of Hearings and
Appeals (OHA) staff will have access that will allow them to view the investigative report
for use in making the disability decision. To view the investigative report click on the
title of the document.

                                       Illustration 4




Evidence should not be removed from the Medical Records section, however, staff at
the DDS and OHA will have systems permission access that will allow them to move the
link for the investigative report to the temporary section of the EF. When the case is
closed, the temporary section of the EF is purged, thereby removing access to the
investigative report. The investigative report still remains; however, the link to access
the investigative report has been removed.




                                            D-3
Create the Exhibit List
The electronic exhibit list was created to mirror the current paper exhibit list used by
ALJs to identify documents to be considered during the hearing. OHA users create the
exhibit list based on the documents in the EF. An exhibit list is created from the case
documents section of the EF. Electronic documents are selected using the checkboxes
to the right of the document. The “Add to Exhibit List” button is used to create an exhibit
list with the selected documents (See Illustration 4).

                                      Illustration 5




To mark documents with the exhibit number and page numbers, select the “Mark Exhibit
No. on Images” button (See Illustration 5). The images of the electronic documents will
be permanently marked with exhibit and page numbers at the top right corner of every
page. After the documents are permanently marked they cannot be deleted from the
exhibit list.




                                            D-4
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      January 11, 2006                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Office of Hearings and Appeals Reversal of
           Disability Denial Decisions Involving Investigative Information from Cooperative Disability
           Investigation Units" (A-07-05-15091) -- INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "OFFICE OF HEARINGS AND APPEALS REVERSAL OF DISABILITY
DENIAL DECISIONS INVOLVING INVESTIGATIVE INFORMATION FROM
COOPERATIVE DISABILITY INVESTIGATIONS UNITS" (A-07-05-15091)

Thank you for the opportunity to review the above-subject audit report. Overall, we support the
purpose of this audit but have several concerns regarding the results.

It is difficult to identify the most effective solutions to address the missing ROIs. The draft
report is not conclusive as to why the ROIs are missing from the folder and at what point in the
adjudicative process they were not included in the folder. This poses problems when assessing
the effectiveness of the recommendations. However, possible reasons for the omission of the
report and corrective actions have already been discussed. It is our understanding that OIG is
considering a change to the confidentiality statement on the ROI, since that may be causing
confusion for the staff filing the ROI in the folder. In addition, OHA issued two memorandums
in October to remind ALJs about the law, policy, and responsibilities of OHA adjudicators when
a CDI ROI is involved.

The OIG draft report (page 6) also cites memorandum communications between the CDI and the
DDS and notes that, in Region VII, there was a 100 percent finding of investigative reports being
in the case folder. This finding indicates that enhanced communications and “best practices” (as
cited on page 6) may considerably improve the problem of absent ROIs in the folder.

Since the cause of missing reports may be occurring at any stage of administrative appeal,
increased communications from the CDI unit may significantly alleviate this problem of missing
investigative reports. To that end, we will discuss with OIG the feasibility of posting, on the
cover sheet of the ROI, a summary (with citations) of the POMS and the HALLEX instructions
for handling the ROI. This would give prominent and direct notice to anyone who may
mistakenly believe that the ROI does not belong in the medical evidence section. It would
clearly remind staff of the folder handling procedures for the report and serve as an alert about
inappropriate removal of the report.

Our responses to the specific recommendations are as follows:

Recommendation 1

Provide instructions in POMS on what component is responsible to: (a) file the investigative
report in the paper folder and (b) flag the EF to identify cases in which a CDI unit investigation
was conducted.

Comment:

We agree.

Our responses to the specific subparts of this recommendation are as follows:




                                                E-2
a) We agree. With regard to component responsibility for filing the CDI report in the folder, the
relevant component instructions are already in place to ensure that the ROI is placed in the
folder. DDS processing procedures (POMS DI 70005.005 B.6, DI 70005.005 F, and DI
70025.001) instruct that the investigative report in the paper folder be readily available and
should be filed on top of all material in the medical records section. HALLEX I-2-1-15 D.6.
instructs that the ROI be filed on top of all medical material. This is reiterated at HALLEX I-2-
1-15 E.6. Each component is responsible to ensure that the ROI is properly filed per POMS and
HALLEX and that the report is addressed by the respective adjudicator.

b) We agree. Instructions already exist to implement this recommendation. POMS DI
80540.045 and DI 80740.045 both explain how to add a high risk factor flag to the electronic
folder.

Recommendation 2

Place restrictions on the EF to ensure the link to the investigative report cannot be removed.

Comment:

We disagree. In order to implement the recommendation that the link to the investigative
document cannot be removed, business rules, requirements, and software modifications would be
needed, and this enhancement would need to be prioritized with other requests for EF
modifications. Given existing procedures, implementation of this recommendation would not be
cost-effective at this time.

Recommendation 3

Request the Chief ALJ to remind ALJs of the September 2005 instructions to document the use
of the investigative report in the disability decision write-up.

Comment:

We agree and have implemented this recommendation. On September 28, 2005, OHA issued
revised provisions in the HALLEX to instruct OHA personnel to include the ROI in the claimant
file. See HALLEX I-2-1-15.

In addition, OCALJ issued “Reminders” about CDI information on October 29 and October 31,
2005, to all OHA employees. These reminders emphasized to OHA ALJs and to Decision
Writers (DW) the evidentiary value of the ROI. ALJs and DWs were also reminded of the need
to address the ROI in the written decision when it is relevant as explained in HALLEX I-2-8-25.
Also, the appropriate employees were reminded of where to place the ROI in the claim folder
and on the Exhibit list according to HALLEX.

In FY 2005, an ALJ Steering Committee comprised of subject matter experts and training
specialists was formed to update the training materials for future ALJ training, including CDIs
and ROIs.



                                                E-3
Finally, OCALJ is scheduled to prepare and deliver during the fourth quarter of FY 2006 an
interactive video training program for OHA employees on fraud and abuse issues.

Recommendation 4

Request the Chief ALJ to encourage ALJs to request CDI unit investigators and third parties to
testify at hearings when clarification of the investigative report is needed, particularly the
testimony of third parties, which might otherwise be construed as hearsay evidence.

Comment:

We agree. OHA will inform ALJs of CDI unit investigators’ availability as hearing witnesses to
clarify the ROI and of the option of requesting additional evidence from a CDI unit when
warranted by case circumstances.

Recommendation 5

Request the Chief ALJ to encourage ALJs to request from SSA and DDSs additional evidence
from CDI units when warranted by case circumstances.

Comment:

We agree. See our response to Recommendation 3 regarding training and reminders.

Recommendation 6

Require surveillance videos to be included in the multimedia evidence section of the EF.

Comment:

We disagree. Under current EF technology, this capability does not exist and, therefore, should
not be required. However, we note that we are making strides in maintaining multimedia.

With the release of eView 9.0 in late November 2005, SSA introduced the first item that can be
stored in the multimedia section of the EF: a digital recording of a hearing shown as a zipped
file. The zipped file can be downloaded so that the reviewer can listen to the hearing at his/her
computer without using an audio compact disc or tape. However, currently there is no standard
format for videos that can be stored in EF and then retrieved into all OHA, DDS, and SSA
systems equipment. Additionally, all CDI units have copies of the surveillance video that are
available for OHA when the ALJ begins to review the case.




                                               E-4
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments

OIG Contacts
      Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

      Shannon Agee, Audit Manager, Kansas City, Missouri (816) 936-5590

Acknowledgments
In addition to those named above:

      Karis Gaukel, Auditor

      Ken Bennett, IT Specialist

      Cheryl Robinson, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-05-15091.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
